<html>
<title> - THE ADMINISTRATION'S PLAN TO CLOSE THE GUANTANAMO BAY DETENTION FACILITY: AT WHAT FOREIGN POLICY AND NATIONAL SECURITY COST?</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                 THE ADMINISTRATION'S PLAN TO CLOSE THE
                   GUANTANAMO BAY DETENTION FACILITY:
                  AT WHAT FOREIGN POLICY AND NATIONAL
                             SECURITY COST?

=======================================================================

                                 HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 23, 2016

                               ___________

                           Serial No. 114-165

                               ____________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ___________
                                
                                
                        U.S. GOVERNMENT PUBLISHING OFFICE
99-556PDF                     WASHINGTON : 2016                        
                                
_______________________________________________________________________________________                                 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="adcaddc2edced8ded9c5c8c1dd83cec2c083">[email&#160;protected]</a>  
                                
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Lee Wolosky, Special Envoy for Guantanamo Closure, U.S. 
  Department of State............................................     5
Mr. Paul M. Lewis, Special Envoy for Guantanamo Detention 
  Closure, U.S. Department of Defense............................    13

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Lee Wolosky: Prepared statement..............................     8
Mr. Paul M. Lewis: Prepared statement............................    16

                                APPENDIX

Hearing notice...................................................    50
Hearing minutes..................................................    51
The Honorable Jeff Duncan, a Representative in Congress from the 
  State of South Carolina: Prepared statement....................    53
The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York: Material submitted for the record.......    55
Written responses from Mr. Paul M. Lewis to questions submitted 
  for the record by the Honorable Edward R. Royce, a 
  Representative in Congress from the State of California, and 
  chairman, Committee on Foreign Affairs.........................    58

 
                 THE ADMINISTRATION'S PLAN TO CLOSE THE
                   GUANTANAMO BAY DETENTION FACILITY:
                  AT WHAT FOREIGN POLICY AND NATIONAL
                             SECURITY COST?

                              ----------                              


                       WEDNESDAY, MARCH 23, 2016

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 9:32 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This committee will come to order.
    President Obama's race to empty the Guantanamo Bay 
detention facility is on. In recent weeks and months, many 
hardened terrorists have been released. Many of them have been 
sent abroad, and according to the President's closure plan sent 
to Congress last month, another 35 are set to be transferred 
this summer.
    Unfortunately, we know many of the recipient countries 
don't have the desire or commitment or even ability to monitor 
these dangerous individuals and prevent them from returning to 
the battlefield. Countries like Ghana and Uruguay aren't 
typical security and intelligence partners but they are being 
asked to shoulder a heavy burden and a heavy responsibility. 
And there are real concerns about the administration setting 
aside intelligence assessments to deceive countries about the 
threat posed by the militants they are being asked to take in.
    That was certainly a finding of our committee investigation 
into the release of six detainees to Uruguay in December 2014--
and I want to thank Mr. Jeff Duncan of South Carolina, the 
chairman of our subcommittee that focuses on the Western 
Hemisphere. The top State Department official overseeing 
Guantanamo at the time wrote to the President of Uruguay that 
there was ``no information'' that these six ``were involved in 
conducting or facilitating terrorist activities against the 
United States or its partners or allies.'' No information? They 
were known to have been hardened al-Qaeda fighters involved in 
forging documents, trained as suicide bombers, fighting at Tora 
Bora, committing mayhem, committing murders in Afghanistan.
    Although the law clearly states that steps must be taken to 
``substantially mitigate the risk'' of released individuals 
from again threatening the United States, senior Uruguayan 
officials asserted before that these six arrived that they 
would not impose or accept any conditions to receive these 
former detainees. Indeed, these six terrorists were housed just 
blocks from the U.S. Embassy, without the prior knowledge of 
U.S. officials and, frankly, were often seen outside of the 
Embassy.
    The administration often talks of detainees ``cleared for 
release'' as if they are no longer a threat. But just over 30 
percent of the detainees that have been released are either 
confirmed or suspected to have returned to the battlefield. 
Several of the senior leaders of al-Qaeda in the Arabian 
Peninsula are alums of Guantanamo.
    The administration is emptying Guantanamo with the flimsy 
claim that it is a terrorist recruiting tool. Let me explain 
that I don't think that if you're standing in line in Raqqa to 
recruit into ISIS you say, oh, Guantanamo Bay is going to be 
closed--no need to enlist here. What Raqqa is about, what ISIS 
is about is the establishment of the caliphate. That's what's 
driving recruitment and, frankly, the success of ISIS on the 
battlefield is driving recruitment.
    Closing this detention facility has been opposed by 
bipartisan majorities in Congress and even members of the 
President's own cabinet. It is no secret that former Secretary 
of Defense Hagel was pushed out in part because he was not 
certifying releases fast enough for the White House.
    Yet, President Obama remains determined to push out as many 
terrorists as he can to other countries. Forty-five or so other 
``law of war detainees'' would be moved to U.S. soil. Doing so 
could open a Pandora's Box of legal issues impairing our 
antiterrorism efforts.
    Fortunately, any effort to bring Guantanamo detainees to 
U.S. soil would be, according to the Secretary of Defense, 
against the law and that's also according to the Attorney 
General. I see no interest in changing that law--certainly not 
by the American people--and our laws must be honored.
    The White House, meanwhile, has no solid plans to detain 
and interrogate terrorists captured today. That's a problem. 
Indeed, the administration admits that its proposed domestic 
Guantanamo would not take in any new terrorists captured on the 
battlefield. If the administration was spending as much time 
working to capture and detain ISIS fighters as it was trying to 
close down this facility at Guantanamo Bay, we would be more 
secure.
    ISIS is continuing to threaten and expand in Libya, 
Afghanistan, and elsewhere across the globe. Europe is under 
siege by jihadists. We are under attack. So, unfortunately, we 
are going to need a detention facility for fanatical terrorists 
whose processing in the U.S. legal system is unwarranted and 
simply is not feasible. And we're going to need that for some 
time to come.
    And we'll now go an introduction of our panel. This morning 
we are pleased to be joined by Special Envoy Lee Wolosky. He's 
the Special Envoy for Guantanamo Closure at the U.S. Department 
of State.
    Previously, he also served as the Director for 
Transnational Threats at the National Security Council under 
President Clinton.
    And we also have Special Envoy Paul Lewis for Guantanamo 
Detention Closure at the U.S. Department of Defense and 
previously Mr. Lewis served as both the general counsel and 
minority general counsel at the House Armed Services Committee.
    And we welcome them both to the committee. We appreciate 
that our two witnesses, along with the intelligence community, 
have already agreed to meet with the committee in April in 
closed session on necessary classified issues.
    Without objection, the witnesses' full prepared statements 
will be made part of the record and members here will have 5 
calendar days to submit any questions or any statements or 
extraneous material for the record.
    And at this time, I would like to go to Mr. Eliot Engel of 
New York who is the ranking member of this committee for his 
opening statement here today.
    Mr. Engel. Thank you very much, Mr. Chairman, and thank you 
for calling this hearing. And gentlemen, Mr. Wolosky, Mr. 
Lewis, welcome to the Foreign Affairs Committee and thank you 
for your service.
    We're reminded again today of the terrible cost of violent 
extremism. I was just on the floor of the House speaking on a 
resolution declaring our solidarity with the people of Belgium. 
That's why I just got here--came here right from the floor.
    The dark shadow of a terrorist attack has fallen over 
another of Europe's great cities, and we're all standing 
alongside the Belgian people today as they mourn the dead, heal 
the wounded, rebuild what's been broken, and seek justice.
    In these situations it's important to look at what more we 
can be done to enhance cooperation with our partners to prevent 
this type of violence.
    It's also important to reflect on where our policies have 
gone astray and maybe made the situation worse. So, it's 
appropriate today that we're taking a hard look at one of the 
most troubling and divisive symbols of our counterterrorism 
effort--the Guantanamo Bay detention facility.
    The subtitle of today's hearing is what are the foreign 
policy and national security costs of closing the Guantanamo 
facility.
    But, as policy makers, legislators, and experts have been 
saying almost since the facility opened, the better question, 
perhaps, may be what are the costs of keeping it open.
    For starters, the prison's a drain on military resources. 
It costs nearly $5 million a year to keep a person detained at 
Guantanamo versus $78,000 a year to hold someone in our most 
secure Federal prison.
    Closing Gitmo and transferring detainees to other secure 
prisons would free up $85 million a year, resources we could 
put to better use elsewhere to combat terrorism.
    The argument against this goes: We need to spend whatever 
it costs--these guys are too dangerous to bring here. Let's 
look at that. Today, 91 detainees remain in Gitmo. Since the 
prison opened, 644 individuals have been transferred out--144 
under President Obama and 500 under President Bush.
    As of today, more than a third of the current detainees 
have been cleared for release after a thorough review process. 
Under no circumstances will these people be released onto 
American soil.
    Like all the others, they will be transferred directly to 
other countries. Prior to 2009, more than one in five released 
detainees returned to the battlefield. But, improved procedures 
under the Obama administration have nearly eliminated this 
problem.
    If the President's plan to close the Guantanamo detention 
facility goes forward, only a handful of detainees would ever 
be brought to the United States and those who are would be held 
in super max prisons.
    They're called super max prisons for a reason. No one has 
ever escaped from one. And who are some of the current 
residents of these incredibly secure facilities? Terrorists. 
Zacarias Moussaoui, who helped plot September 11, 2001--as a 
New Yorker something that I'll never forget--Richard Reid, the 
so-called shoe bomber, Dzhokhar Tsarnaev, the Boston Marathon 
bomber, the four men behind the 1993 World Trade Center 
bombing, and six terrorists responsible for bombing our 
Embassies in Kenya and Tanzania. All these men will call ADX 
Florence in Colorado home for the rest of their days.
    For the very few prisoners still in the military commission 
process, we should try them in Federal court and speed justice 
for their victims. If there's any doubt whether our justice 
system can handle the most dangerous terrorists, ask any of the 
people I just listed.
    This isn't a question of what rights Guantanamo detainees 
should or shouldn't be accorded. It's just a simple fact that 
the Federal justice system has tried and punished terrorists 
much more effectively than military commissions.
    But beyond the dollars and cents or safety here at home, we 
need to consider the harm Gitmo has inflicted on our security 
interests around the world and, just as importantly, on our 
values.
    For terrorists seeking to recruit more fighters into their 
ranks, the Guantanamo facility is a gift that keeps on giving. 
This prison has become so infamous and so reviled that our 
enemies no longer even need to call it by name.
    Instead, as we've seen again and again, terrorists flip on 
a camera so the whole world can see, parade out some innocent 
prisoner dressed in an orange jumpsuit, and cut off his head or 
light him on fire.
    The orange jumpsuits weren't selected by accident. Everyone 
knows what they symbolize. This prison has helped strengthen 
our enemies. It has become a stumbling block in our 
relationship with coalition partners.
    After all, it's not just Americans that ISIS is dressing in 
those orange jumpsuits and it has created deep division here at 
home, and that's because Gitmo has long strained some of our 
country's most important values.
    It has become synonymous with torture and indefinite 
detention. When we were going to school, we learned all about 
rights and the Constitution. This was never allowed under 
American law.
    I want to quote retired Major General Michael Lehnert, the 
first commander of the detention facility after 9/11. This is a 
quote from him. He said:

        ``Guantanamo was a mistake. History will reflect that. 
        It was created in the early days as a consequence of 
        fear, anger, and political expediency. It ignored 
        centuries of rule of law and international agreements. 
        It does not make us safer and it sullies who we are as 
        a nation.''

    So I ask unanimous consent that Major General Lehnert's 
full statement be included in the record.
    Chairman Royce. Without objection.
    Mr. Engel. Thank you, Mr. Chairman. Coming back to our 
question, what are the costs of closing Guantanamo? To me, the 
answers are clear.
    The costs of closing the facility are far, far less than 
the costs of keeping it open. I'm not alone in this view. 
President George W. Bush was very clear that he wanted to close 
Gitmo. John McCain made a campaign promise to do the same.
    An overwhelming majority of national security and military 
experts, including former Secretaries of State and Defense, CIA 
Directors, National Security Advisors, and Chairmen of the 
Joint Chiefs of Staff think it should be shuttered.
    As I pointed out, the arguments against closing it just 
don't hold up, and at the end of the day, in my opinion, the 
only justification for keeping the prison open is fear--fear of 
violent extremism and fear that our justice system or prison 
system cannot get the job done despite all the evidence to the 
contrary. Fear is precisely what our enemies want to instill in 
us.
    I don't want them to win. We shouldn't allow that. We 
should clean up this stain on America's commitment to justice 
and democracy. We should take away this propaganda tool for 
terrorists. We should work to implement the President's plan 
and shut down this prison.
    I look forward to hearing from our witnesses. Everyone who 
knows me knows that I take a very hard line on this. But I 
think that we are far better off closing this facility for our 
interests, no other interests--our American interests--than if 
we leave it open.
    So I look forward to hearing our witnesses. Thank you, Mr. 
Chairman, and I yield back.
    Chairman Royce. Thank you, Mr. Engel.
    Lee?

  STATEMENT OF MR. LEE WOLOSKY, SPECIAL ENVOY FOR GUANTANAMO 
               CLOSURE, U.S. DEPARTMENT OF STATE

    Mr. Wolosky. Thank you, Mr. Chairman.
    Chairman Royce, Ranking Member Engel, distinguished members 
of the committee, good morning.
    I appreciate the opportunity to appear before you this 
morning to discuss the important matter of closing Guantanamo 
Bay, Cuba's detention facility.
    I'm honored to be joined today by my colleague, Paul Lewis, 
Special Envoy for Guantanamo Detention Closure at the 
Department of Defense.
    Today I'll describe the rigorous processes that determine 
whether a detainee should be approved for transfer and the 
extensive interagency efforts that assure compliance with 
applicable statutory requirements before each transfer takes 
place.
    At the outset, let me emphasize that President Obama 
concluded that the continued operation of the Guantanamo 
detention facility damages our national security for many of 
the same reasons that led President George W. Bush to the same 
conclusion.
    According to President Bush, by his second term, and I 
quote, ``The detention facility had become a propaganda tool 
for our enemies and a distraction for our allies.'' It remained 
so when President Obama took office and remains so today.
    The bipartisan view that Guantanamo should be closed is not 
limited to Presidents Bush and Obama. Senator John McCain has 
said that he is in favor of closing Guantanamo.
    Likewise, former Secretaries of State Clinton, Rice, 
Powell, Albright, Christopher, Baker, and Kissinger have all 
advocated closing Guantanamo.
    So too have three former chairmen of the Joint Chiefs of 
Staff and 42 retired generals and admirals. The list goes on.
    In addition to leading Democrats and Republicans, world 
leaders and international organizations from the Pope to the 
Organization for American States consistently call on the 
United States to close Guantanamo.
    Today, there are 91 individuals detained at Guantanamo, 
down from the peak population of 680. All together a total of 
779 detainees have passed through Guantanamo and of those 688 
have departed.
    The vast majority of detainees are transferred out of 
Guantanamo to other countries. Some 532 were transferred before 
President Obama took office on January 20th, 2009. Prior to the 
implementation of rigorous interagency procedures that were 
implemented by this administration and are described more fully 
in my written testimony.
    My written testimony describes at length the two processes 
by which this administration has approved detainees for 
transfer.
    What they have in common is rigorous review and analysis of 
all available information in the possession of the U.S. 
Government and the unanimous agreement of six agencies and 
departments before a detainee may be designated as approved for 
transfer.
    After a detainee is approved for transfer, the Department 
of State leads negotiations with foreign governments about 
possible transfer. We are joined in our efforts by colleagues 
from the Department of Defense, Justice, and Homeland Security 
as well as by those in the intelligence community and on the 
Joint Staff.
    The decision as to whether, when, and where to transfer a 
detainee is the culmination of a rigorous interagency process 
similar to the initial decision to approve a detainee for 
transfer.
    This process, including the process by which we negotiate 
security assurances with our foreign partners is described at 
length in my written testimony.
    I look forward to your questions about it. Once we arrive 
at a satisfactory security framework with a foreign government, 
the Secretary of Defense seeks concurrence in a specific 
transfer from the Secretaries of State and Homeland Security, 
the Attorney General, the Director of National Intelligence, 
and the Chairman of the Joint Chiefs of Staff.
    Only after he receives the views of those principals and 
only after he is satisfied that the requirements of the 
National Defense Authorization Act are satisfied does the 
Secretary of Defense sign and transmit a certification to the 
Congress conveying his intent to transfer a Guantanamo 
detainee.
    The rigorous approval and negotiation process I've 
described has contributed to the dramatic reduction in the 
confirmed reengagement for detainees transferred during this 
administration.
    Thank you again, ladies and gentlemen of the committee. I 
greatly appreciate the opportunity to speak before you about 
this important issue and I look forward to your questions.
    [The prepared statement of Mr. Wolosky follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                  ----------                              

    Chairman Royce. Mr. Lewis.

 STATEMENT OF MR. PAUL M. LEWIS, SPECIAL ENVOY FOR GUANTANAMO 
         DETENTION CLOSURE, U.S. DEPARTMENT OF DEFENSE

    Mr. Lewis. Chairman Royce, Ranking Member Engel, 
distinguished members of the committee, good morning and thank 
you for the opportunity to testify today.
    I'm honored to join my colleague, Lee Wolosky. And Mr. 
Chairman, I particularly appreciate your continued and 
sustained interest in this extremely important issue.
    At the outset, I want to echo Special Envoy Wolosky's 
statement and make one fundamental point regarding the 
detention facility at Guantanamo Bay.
    The President and his national security team have 
determined that closing this detention facility is a bipartisan 
national security imperative.
    The President has repeatedly stated that the continued 
operation of the detention facility at Guantanamo weakens our 
national security by damaging our relationships with key allies 
and partners, draining resources, and providing violent 
extremists with a propaganda tool.
    In January of last year, 42 retired military leaders, all 
retired general officers or flag officers, wrote the leadership 
of the Senate Armed Services Committee and forcefully argued 
for the closure of this facility, stating that the issue of 
what to do with Guantanamo is not a political issue.
    There is near unanimous agreement from our nation's top 
military, intelligence, and law enforcement leaders that 
Guantanamo should be closed.
    This letter was signed by General Charles C. Krulak, a 
retired commandant of the Marine Corps, Major General Michael 
Lehnert, the first commander of the Joint Detention Task Force 
at Guantanamo, General Joseph Hoar, former commander of U.S. 
Central Command, General David Maddox, the former commander of 
the U.S. Army in Europe and many other leaders. Many of these 
leaders reaffirmed this letter this month.
    As Lee noted, in addition, former Chairman of the Joint 
Chiefs of Staff Admiral Michael Mullen and General Martin 
Dempsey support Guantanamo closure.
    It's the opinion of many others in our military. Envoy 
Wolosky has noted the bipartisan support for Gitmo closure but 
I think it's important to highlight this broad conclusion.
    This conclusion is shared by two Presidents, four former 
Secretaries of Defense, eight former Secretaries of State and 
it demonstrates this bipartisan support at the highest level of 
our national security leadership.
    As Envoy Wolosky noted, in his memoirs President George W. 
Bush himself concluded that the Guantanamo detention facility 
was a propaganda tool for our enemies and a distraction for our 
allies.
    The President himself made this statement, and as President 
Obama recently noted, by 2008 it was widely recognized that 
this facility needed to close. This was not my opinion. This is 
the bipartisan support to close it.
    As the Special Envoy for Guantanamo Detention Closure, my 
primary focus is on the transfer process. Sixteen detainees 
have been transferred to date in 2016. These transfers have 
reduced the Guantanamo detention facility's population to fewer 
than 100 for the first time since 2002.
    Overall, 27 nations since 2009 have accepted Guantanamo 
detainees who are not from that prospective country. In 
addition, 13 other countries or territories have accepted 
repatriation of their own citizens since 2009.
    As with our military leaders, foreign leaders regularly 
cite the Guantanamo detention facility as an obstacle to 
counterterrorism efforts.
    In my written statement, I cite several statements. Cliff 
Sloan, Envoy Wolosky's predecessor, noted an example. As a 
highly ranking security official from one our staunchest allies 
on counterterrorism once told me, the greatest single action 
the United States can take to fight terrorism is to close 
Guantanamo.
    And I know highlights by other counterterrorism experts 
from the previous administration--John Bellinger and Matt 
Waxman, who both worked for the Department of State--noted, the 
counterterrorism effects of not closing Gitmo and I describe 
those in more detail in my opening statement.
    Mr. Chairman, I'm also prepared to address the plan to 
close Guantanamo detention facility. The President, announcing 
the plan, stated that it has four main elements.
    We'll continue to transfer, we'll accelerate the POB 
process, we'll look for individual dispositions and, most 
importantly, we'll work with Congress to find a location to 
transfer everybody from Guantanamo safely and securely.
    As far as the transfer process, I just want to state that 
Secretary Carter has forcefully stated that safety is his 
number-one priority.
    He does not transfer a detainee unless he is confident that 
the threat is substantially mitigated and it's in the national 
security interests of the United States.
    Finally, I'd like to take a moment to recognize the 
military service members conducting detention operations at 
Guantanamo Bay. Too often in the course of considering the 
future of this facility we lose sight of the remarkable men and 
women who serve honourably under extraordinarily difficult 
conditions.
    They have our deepest appreciation for their service and 
their professionalism, which they display each and every day on 
behalf of our nation.
    Gentlemen, President Bush worked toward closing Guantanamo. 
Many officials in his administration worked hard toward that 
objective. We're closer to it than many people realize.
    Of the nearly 800 detainees who have been held at 
Guantanamo since the facility opened over 85 percent have been 
transferred, including more than 500 that were transferred by 
the previous administration.
    The President, his national security experts, and this 
administration believe it should be closed. The senior military 
leaders of this country and the leaders of the Department of 
Defense concur.
    As indicated in the letter by the retired military leaders, 
many believe that closure of this facility is the single most 
important counterterrorism effort the United States can 
undertake.
    We believe the issue is not whether to close the Guantanamo 
detention facility--it's how to do it. Thank you, and I look 
forward to your questions.
    [The prepared statement of Mr. Lewis follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                  ----------                

    Chairman Royce. Let me ask both our witnesses. The 
Secretary of Defense and Attorney General Lynch have both 
stated that transfers of Guantanamo detainees to the United 
States are legally prohibited. Is that your understanding of 
the law as well?
    Mr. Wolosky. It's my understanding of the law that with the 
statute in its current form prohibits transfers to the United 
States, which is why we are working at this time with the 
Congress or seeking to work with the Congress to modify the law 
in order to be able to bring into the United States a small, 
reducible minimum number of detainees as described in the 
President's closure plan.
    Chairman Royce. Is it correct then that under current law 
the Department of Defense is prohibited from selecting any U.S. 
site or making any preparations for transfer of the detainees 
to the U.S.
    Mr. Wolosky. Frankly, I have no idea. That is a legal 
question that is most appropriately directed to the Department 
of Defense.
    Chairman Royce. Mr. Lewis?
    Mr. Lewis. Mr. Chairman, we believe detainees can be safely 
and securely and humanely detained in the United States. I 
believe the current statute does prohibit us from doing that.
    So we are working toward doing that. The plan that was sent 
up we gave a look at locations, military facilities and Federal 
and state facilities that could do that. We believe detainees, 
as I said, can be detained. We did not pick a specific 
location.
    Chairman Royce. One of the concerns that Congress clearly 
has here is that in terms of our experience with those who have 
left Guantanamo Bay, over the long haul those that returned to 
the fight or those who are suspected of having returned to the 
fight is a little over 30 percent.
    I understand the argument that the administration is making 
that of recent individuals released, they haven't returned--
there's a lower percentage that return to the fight.
    But, of course, there's a continuum in terms of collecting 
the information and monitoring and transitioning as people end 
up--I'm just looking at the overall number. The overall number 
is in the neighborhood of 31 percent, and if we begin to focus 
on some of the recent examples of those who did, it is pretty 
concerning, given Ibrahim al-Qosi. He was one of the high-risk 
detainees, transferred by this administration and by 2014 he 
had joined al-Qaeda in the Arabian Peninsula and now he is in 
their leadership.
    And last month we saw a video urging a takeover in Saudi 
Arabia. He would not be out doing his propaganda if he were 
housed in Guantanamo and one of the concerns I have about the 
rap sheet on those inside as we make the argument--we've been 
through these discussions--when we make the argument about the 
necessity of releasing them.
    But the fact is--but the bottom line is they end up, a 
certain percentage of them, pulling stunts like this, calling 
for the overthrow of the Government of Saudi Arabia and very 
engaged in that process.
    And so in terms of the--I understand the theory that it's a 
recruitment tool--that thesis. But the fact is that a 
significant percentage of them return to the fight and we have 
an unclassified letter to Congress last month from the director 
of national intelligence writing that the intelligence 
community lacks reporting that Guantanamo propaganda has 
motivated more recent ISIS recruits to join the group.
    So there is a debate. I certainly talked to former 
administration high ranking officers and officials who have the 
opposite of the view that you've laid out today who tell me no, 
they don't think it has to do with recruitment.
    We understand your theory on it. But there is the fact, and 
the fact is that we do have this process. So let me ask you 
this question.
    We do have this challenge because of the way this process 
is releasing individuals to countries that don't have the 
capabilities. So here's my question.
    Mr. Lewis lists in his testimony some of the countries that 
the administration has transferred detainees to since 2009. So 
Mr. Lewis, El Salvador, Kazakhstan, Ghana, and I would just ask 
Lee, have you been to Ghana?
    Now, this is one of the countries that I've been to. Are 
you fully confident that it has the capability and motivation 
to monitor and track these detainees?
    Mr. Wolosky. Mr. Chairman, yes, we are. As you know, no 
transfer occurs unless we are confident in the security 
assurances that we've received and the Secretary of Defense 
makes the requisite certifications to the Congress.
    To date, and we only have admittedly several months of 
experience, what I can tell you in this open forum--and we're 
happy to come and brief you in closed session--is that we are 
very pleased by the implementation by the Government of Ghana 
of the security assurances that have been agreed to.
    Chairman Royce. As I said, I've been to Ghana and across 
West Africa. Ghana is a wonderful place. It's a wonderful 
country. But the fact is that it doesn't have top notch 
intelligence or law enforcement services to deal with this kind 
of problem.
    The GDP per capita is, like, $4,000. It's 175th in the 
world. The fact is that their leaders have many, many 
challenges in Ghana facing them every day. So I'm going to 
guess that tracking and monitoring former Guantanamo detainees 
isn't a priority just as it wasn't in other examples that I've 
laid for you--laid out for you like Uruguay.
    It just wasn't high up there and if they weren't returning 
or if 31 percent of them haven't returned to the fight this 
wouldn't be a concern. But this is a very real concern.
    I'll go to Mr. Engel for his questioning.
    Mr. Engel. Thank you, Mr. Chairman.
    You know, emotionally--because of terrorists and the 
attacks on 9/11 and the attacks in Brussels and things that 
we're hearing--emotionally, you just want to say well, throw 
them all in jail and put them all in jail and throw away the 
key.
    But that's not how were supposed to work as a nation. 
That's not what we stand for, and I don't believe that we 
should abandon our principles if we can still be safe.
    I would say that things are a trade-off. I wouldn't be for 
abandoning our principles if it meant that there was going to 
be a larger chance of being unsafe as a result of releasing or 
transferring some of these people.
    But when you read the facts and you look at the facts, you 
see that it's really worse by keeping them there. I have a 
balance sheet.
    I'm not for releasing anybody who was guilty, but I'm also 
not for keeping people in prison year after year after year 
with no trial. That's not what I learned when I was in grade 
school about one of the reasons why this country is so great.
    Opponents of closing the Guantanamo detention facility 
often say that the people currently in the prison are the worst 
of the worst or the most dangerous, and that's why we should 
not release them at all.
    Some critics point to risk assessments from the previous 
administration--from the Bush administration--in support of 
this claim.
    What's your view of how risk assessments have been 
conducted by the interagency task force and the periodic review 
boards compared with previous risk assessments.
    And given what you know about detainees currently held at 
Guantanamo, are they really the most dangerous? If not, why 
have they been in Guantanamo for so long?
    Is it because we've already transferred all the easy cases? 
Explain how these people are vis-a-vis cases that have already 
been adjudicated.
    Mr. Wolosky. Sure. Thank you, Congressman, for the 
question.
    It's certainly the case that there are some extremely 
dangerous individuals who remain in Guantanamo.
    But it's also the case that there are individuals in the 
Guantanamo who are not extremely dangerous. Of the 36 that are 
currently approved for transfer, 29 are Yemeni nationals and, 
of course, we have been unable to return them to Yemen. 
Returning them to the country of origin is always our first 
choice in removing a Guantanamo detainee from Guantanamo.
    So there is a significant component of country of origin 
that goes into the remaining detainee population and while they 
are still there.
    With respect to your first question, it sort of bleeds into 
the reengagement issues that the chairman raised which I 
appreciate the opportunity to address because we actually do 
have hard data on re-engagement and I'd like to refer you to 
the numbers in the report issued by the Office of Director of 
National Intelligence earlier this month on re-engagement.
    The actual numbers are, in this administration, seven 
confirmed re-engagement former detainees. In the previous 
administration, 111.
    Seven in this administration out of 144 transferred. That 
translates into 4.9 percent. The number for the previous 
administration is 111 out of 532, which translates into 20.9 
percent.
    We believe that this data affirms that the procedures that 
we have put in place during this administration have worked to 
substantially reduce any re-engagement concerns.
    And I also think that you're exactly right when you 
indicated in your opening statement that the risks of 
transferring detainees, and we've acknowledged that there are 
risks, must be weighed against the risks of keeping the 
facility open.
    There has been until recently a bipartisan consensus that 
there are significant national security and foreign policy 
risks associated with keeping the facility open.
    That was articulated by the previous President who 
transferred over 500 detainees out of Guantanamo in furtherance 
of his effort to close Guantanamo because he recognized that it 
was a propaganda tool.
    The conclusion was also reached by nonpartisan military 
leaders across the services. So I think that when we talk--I'll 
stop speaking in a moment--when we talk about re-engagement it 
is important to refer to the actual data that has been put 
forward by the director of national intelligence.
    Mr. Engel. Let me ask you, who's left at Guantanamo? Is it 
correct that of the 91 individuals who remain at Guantanamo, 81 
are not facing criminal charges? Is that true, and is it also 
correct that 35 individuals have been cleared for transfer out 
of Guantanamo?
    So what does that mean to be transferred out? Who decides? 
How long have they been cleared for transfer and why are they 
still waiting to leave?
    Mr. Wolosky. Thank you for your question.
    There are 91 detainees in Guantanamo. Thirty-six have been 
approved for transfer. Some of them have been approved for 
transfer since 2010, some of them more recently.
    Ten are in some stage of the military commission process 
either facing charges or serving sentences and the remainder, 
40 some odd detainees, are neither approved for transfer nor 
currently facing charges.
    Mr. Engel. Can I--Mr. Chairman, could you just indulge me?
    I just want to quickly ask a Federal court question. The 
administration's plan calls for some Guantanamo detainees to be 
tried in the U.S. Federal courts, but Congress has imposed a 
ban on transferring any Guantanamo detainees to the U.S. for 
any reason including for trial.
    But from what I can see, Federal courts have been extremely 
effective at trying terrorism cases. Since 9/11, Federal courts 
have convicted over 500 people on terrorism-related offenses. 
By contrast, the 9/11 military commission trial has been in 
pre-trial hearings since 2012.
    So the trial itself is not expected to start until 2020. 
So, why have the Federal courts, in your opinion, been so much 
more effective at bringing these terrorists to justice?
    Mr. Wolosky. Well, the Federal courts have a proven 
mechanism for both convicting and then making sure that 
convicted felons serve time safely and responsibly.
    You're right, there are numerous terrorists who have been 
effectively convicted and are now serving time in the Federal 
prison system. Faisal Shahzad, the Times Square bomber, Richard 
Reid, the shoe bomber, Mr. Tsarnaev, the Boston Marathon 
bomber, Moussaoui--the list goes on. They all have been held 
safely and securely.
    Back to the point that the chairman raised about Mr. Al-
Qosi. I should point out that he was released from the custody 
of the United States after serving his military commission 
sentence.
    So he is an example of someone who went through the 
military commission system, pled guilty to materiel support and 
conspiracy and then after he served his sentence in that system 
he was released.
    If he were put through the Article 3 system, he would 
probably still be serving his sentence and not be off doing 
what he's been doing.
    Chairman Royce. If I could--we're talking about two 
different sets of numbers. So if I could just address that 
quickly before we go to the next member.
    In terms of the administration's numbers that they 
released, the administration's claim is 7.9 percent of 
detainees released under the President are confirmed or 
suspected of reengaging in terrorism.
    You were just using the number of confirmed and the 
administration that released a figure that overall the rate is 
just over 31 percent. Investigators tell us that it takes 4 
years to confirm.
    So there is--there is a question in terms of the time line 
on detainees' recidivism. But the overall rate that I'm quoting 
here is the rate on confirmed or suspected.
    We'll go now to Mr. Chris Smith of New Jersey.
    Mr. Smith. Thank you very much, Mr. Chairman, and welcome, 
both of you, to the committee.
    Yesterday, I chaired an oversight hearing focusing on the 
14 countries that Reuters found after a series of investigative 
reports. I want this on the record and I hope the press will 
take notice of this because I think it's an egregious flaw in 
our implementation of the Trafficking Victims Protection Act, 
which I am the author of.
    I am deeply concerned that Cuba's tier, their State 
Department ranking, which had been the worst--it had been there 
during the Bush administration, had been so designated during 
the Obama administration--only to be manipulated politically 
for non-human trafficking criteria in anticipation of this 
rapprochement, which I find absurd.
    The TIP Report should be absolutely accurate and speak 
truth to power and defend those who have been--are you bored 
with this?
    Mr. Wolosky. No. No.
    Mr. Smith. Thank you. Should speak truth to power when it 
comes to sex trafficking and child sex tourism, which is 
rampant, and the Castro regime gleans enormous profits from it 
as they do from labor trafficking.
    And we have an upgrade which takes them off the sanctions 
list, which I find to be appalling. Yesterday one of our 
witnesses pointed out that the Cuban Government is likely one 
of the largest and most profitable trafficking promoters in the 
entire world.
    So my hope is that this year, and yesterday's title of our 
hearing was next time get it right, that there will be no 
political manipulation of the trafficking tiers.
    If you read the report itself, it reads inescapably to a 
tier three sanctions rating. But when it got to another level 
there was a manipulation there for political reasons and I find 
that appalling and deeply, deeply saddening.
    Let me just ask you a question on point. The point man in 
Uruguay, as we all know, for overseeing the six transferred 
Guantanamo detainees is the Minister of Interior, Eduardo 
Bonomi.
    Are you confident in Minister Bonomi's commitment to 
ensuring that the former detainees do not link up with 
international Islamic terrorist networks or ensuring that these 
six individuals do not threaten our Embassy personnel or 
American nationals in Uruguay?
    In other words, do you trust Eduardo Bonomi and believe he 
is a man of honorable character?
    Mr. Wolosky. Well, thank you for your question, 
Congressman.
    I don't know him but what I can say is that we are 
confident. There's never--as I said, there's never no risk 
associated with transferring a detainee. The appropriate 
calculus, we believe, is the one essentially that Congressman 
Engel put forth, which is weighing the risks of transferring 
versus the risks which have been recognized across the spectrum 
of maintaining the facility.
    But we are confident, to your question, that the Government 
of Uruguay is taking appropriate steps to substantially 
mitigate the risk associate with each of the six detainees that 
have been transferred to its custody.
    Mr. Smith. Again, is it your view that the minister--this 
particular minister, an avowed leftist, is trustworthy? Because 
he is the guardian.
    Mr. Wolosky. I don't agree with that necessarily. When we 
look at countries to resettle detainees in we do not base it on 
personalities.
    We base it on the government as a whole, the capabilities 
of the government as a whole and the willingness of the 
government, and then of course the specific security assurances 
that have been negotiated and our assessment of whether or not 
can and will be implemented.
    Mr. Smith. Well, since he is likely to be the point man or 
is the point man, could you provide for the record at least 
your analysis as to his trustworthiness?
    Mr. Wolosky. I can't because I don't know him. But, again, 
when we look at transfer opportunities we base our conclusions 
on the capabilities of the government.
    Mr. Smith. But he is the point person for the government.
    Mr. Wolosky. He may be now. He may not be tomorrow and so 
we don't--we don't rely on particular personalities is sort of 
the bottom line.
    Mr. Smith. I understand. But with all due respect, 
personnel is policy and if a government has a person walking 
point on a particular issue like this one and it happens to be 
this Minister of Interior, I think we would want to know 
whether or not he is a person who can be trusted, particularly 
with such people who have committed terrorism and may recommit.
    Mr. Wolosky. Well, again, as I said, I have not met him so 
I feel uncomfortable offering a personal assessment and what we 
do do is we base our decisions on governments as a whole.
    Mr. Smith. But, again, that's why--for the record if you 
could provide an additional amplification of those who analysed 
the situation and felt comfortable enough to proceed with this 
vis-a-vis this particular minister.
    Mr. Wolosky. The Department of State felt comfortable.
    Mr. Smith. If you could provide us that analysis in a 
follow-up--just answer.
    Mr. Wolosky. Just to be clear, what--the analysis of----
    Chairman Royce. And we can do a lot of that by follow-up 
and answer because we need to go to Mr. David Cicilline and get 
through a lot of members here.
    Mr. Cicilline, you're next.
    Mr. Cicilline. Thank you, Mr. Chairman, and thank you to 
our witnesses.
    The title of this hearing refers to the foreign policy and 
national security costs of the administration's plan to close 
Guantanamo Bay, the detention facility.
    However, the vast majority of national security leaders, as 
you both indicated, as well as leaders on both sides of the 
political spectrum, say that the real foreign policy and 
national security costs come as a result of keeping the prison 
open and in fact describe the closing of the Guantanamo 
detention facility is a national security imperative.
    And so I'd like you to speak to how the administration's 
plan to close Guantanamo Bay detention facility will impact our 
ability to work with our coalition partners in the fight 
against terror and how the failure to close it is providing a 
real impediment to that critical work.
    Mr. Lewis. Thank you, sir.
    As I noted in my opening statement, continuously countries 
across the world and allies tell us that Gitmo hurts us. So we 
work with those countries.
    By closing Gitmo we address a concern of the rest of the 
world. The United States needs to lead. We can't do this alone, 
and when our allies in counterterrorism are telling us that 
Gitmo needs to be closed we take an issue off the table.
    We don't remove the risk completely. It's always going to 
be a propaganda issue but we take that issue off the table.
    Mr. Cicilline. And does the presence of Guantanamo Bay have 
an impact on our ability to use diplomacy and soft power to 
press other countries to uphold human rights obligations 
including responsibilities against torture, forced 
disappearance, arbitrary or definite detention--things that we 
speak about with other countries--and has our credibility been 
harmed by the continued indefinite detentions at Guantanamo Bay 
and the opening of this facility?
    Mr. Lewis. Yes, sir, I believe it does. As the President 
noted in his statement last month, leaders that he meets with 
continuously raise the issue of Gitmo. They continuously raise 
the issue of specific detainees.
    Lee's predecessor, Cliff Sloan, mentioned how he's been 
told by foreign leaders that closing Gitmo would be the single 
greatest issue to help our counterterrorism efforts and 
repeated leaders from both this administration and the previous 
administration have said the same. So I think it does hurt us.
    Mr. Cicilline. And with respect to the 36 detainees that 
have been approved for transfer, some since 2010, what is the--
what is taking so long for that to be completed?
    Mr. Lewis. As we said, most of them are Yemenis. Twenty-
nine are Yemenis so we can't confidently send them to Yemen 
right now.
    So we have to go look at this list of 27 other countries 
that have stepped up and find a fit for that detainee, find a 
fit for the security situation in the country, their 
willingness, and their capacity.
    So it's a mixture of sequencing. It's a mixture of the 
domestic issues in the country. But 27 countries demonstrates 
that there are countries that want to help us and are willing 
to step up.
    We are confident that the majority of these 36 can be 
transferred the next several months.
    Mr. Cicilline. Thank you. And with respect to the issues 
regarding reengagement, the office of the director of national 
intelligence categorizes these reengagement in three different 
ways for these purposes of this hearing.
    Seventeen and a half percent of detainees have pre-engaged. 
But if you break that number down prior to this President, 
prior to January 2009, the number was 20.9 percent. But since 
President Obama the figure if 4.9 percent.
    So Mr. Wolosky, will you explain are those figures 
accurate? What do they represent and how do you account for 
this dramatic reduction in reengagement, which is critical? I 
mean, those are--obviously, any reengagement is alarming but 
the fact that it's been brought to 4.9 percent from 20 percent 
didn't happen just by magic. There has to have been some change 
in process. Could you speak to that?
    Mr. Wolosky. Sure. Yes, there have been many changes in 
process that have been put in place in this administration from 
the actual decision to approve someone for transfer, which is a 
complicated, time-consuming and very thorough and very rigorous 
interagency process and only moves forward with the consent of 
each of six agency and departments.
    Two, then the actual decision to transfer and approve for 
transfer detainee to a specific country which, again, is a 
rigorous interagency process that entails the negotiation of 
detailed and quite specific security assurances with the 
specific country and then ultimately input from the same six 
agencies and departments and then congressional notification by 
the Secretary of Defense.
    So our process is very thorough and it's very rigorous and 
it's very time-consuming, further to your question about why 
things have taken so long and we believe that, again, there's 
never no risk.
    But we believe that the relative success of our processes 
are reflected in the reengagement figures when you look at the 
figure--the small figure in this administration and the larger 
figure in the previous administration.
    Mr. Cicilline. Thank you, and I yield back. Thank you, Mr. 
Chairman.
    Chairman Royce. Mr. Rohrabacher.
    Mr. Rohrabacher. Well, the first question I'd like answered 
I think could be answered with a yes or no.
    Has the Defense Department ever knowingly transferred a 
detainee to a country that did not exhibit an ability to 
substantially mitigate the risk or maintain control of that 
individual? I think a yes or no could be--it's a very 
straightforward.
    Has the Defense Department ever sent someone to a country 
knowing that that country was unable to keep control of that 
person?
    Mr. Lewis. No.
    Mr. Wolosky. Well, I'm not from Defense Department but I'm 
assuming that your question relates to this administration 
while that was the statutory standard.
    Mr. Rohrabacher. Actually, it doesn't. Do you know of any 
examples?
    Mr. Wolosky. I can't speak for the previous administration, 
certainly.
    Mr. Rohrabacher. Okay. Well, what about this 
administration? Can you speak to whether or not that the 
Defense Department has transferred a detainee to someone who--
is there some reason that you can't say yes or no?
    Mr. Lewis. I don't work at the Department of Defense so----
    Mr. Rohrabacher. All right. But you----
    Mr. Lewis. So what I can tell you is----
    Mr. Rohrabacher. Let's leave it at knowingly. Do you know 
of a case where the Defense Department has knowingly 
transferred a detainee to a country that did not exhibit the 
ability to substantially mitigate the risk by maintaining 
control of the individual? Do you know of a case like that?
    Mr. Wolosky. I do not.
    Mr. Rohrabacher. Okay.
    Mr. Lewis. So the statutory standard is----
    Mr. Rohrabacher. It's all right. It's all right.
    Mr. Lewis. Yes, sir.
    Mr. Rohrabacher. You made your answer.
    Let me just suggest that this idea that people throughout 
the world are so upset with us for keeping a significant number 
of people who were captured as part of terrorist units--
incarcerating them in Guantanamo, that that is such a horror 
story that it's a recruitment vehicle--that's what the 
President is telling us. It's what the administration is 
telling us.
    Let me suggest if that is true than our European allies and 
some others believe that taking these hardened murderers who 
murder men, women, and children and incarcerating them in Cuba 
or anywhere else--let me suggest that that attitude of Europe 
may well be changing in the next 6 months or so when they 
realize that the slaughter that's taking place in Paris and now 
in Brussels is part of an international movement to destroy 
Western civilization and replace it with a caliphate.
    And when they understand that, my guess is that view that 
it's so bad to keep these people in prison will change as well.
    Let me ask you this. We say that about 30 percent or 
whatever that figure is that have been released have returned 
to terrorist activities.
    How many lives have been lost by those terrorists who went 
back to their terrorist activity? How many lives?
    Mr. Lewis. I can talk about that in a classified setting 
but----
    Mr. Rohrabacher. Oh, classified?
    Mr. Lewis. Yes.
    Mr. Rohrabacher. Oh, it's going to--so is it over ten?
    Mr. Lewis. So what I can tell you is, unfortunately, there 
have been Americans that have died because of Gitmo detainees.
    Mr. Rohrabacher. How many Americans have to die? How many 
people in Brussels or Paris have to die, civilians? What's the 
threshold at that point--well, maybe we will keep them under 
control in Gitmo?
    Mr. Lewis. When anybody dies it's a tragedy and we don't 
want anybody to die because we transferred detainees.
    However, it's the best judgment and the considered judgment 
of this administration and the previous administration that the 
risk of keeping Gitmo open is outweighed--that we should close 
Gitmo, that the risk----
    Mr. Rohrabacher. So the innocent people who are going to 
lose their lives because of this they're just part of the 
equation?
    Mr. Lewis. No, sir. There are risks----
    Mr. Rohrabacher. I'm sorry. I want to tell you this much. 
As far as I'm concerned if one child is saved because she would 
have been blown up by someone who's being released it's better 
to keep all 90 of those people in Gitmo, and this idea that the 
people of the world oh, they're so upset with us that it's a 
recruiting vehicle, that we've kept terrorists who murder 
innocent people in Gitmo, well, you know what? I think the 
bigger recruiting tool today is when our Government, especially 
this administration, is perceived as being weak.
    I think terrorists are recruited not because we've held 
other terrorists in prison but because we look like we're weak 
and cannot deal with the challenge.
    This disgusts me. Thank you very much.
    Chairman Royce. We go to Robin Kelly of Illinois.
    Ms. Kelly. Thank you, Mr. Chair.
    Mr. Wolosky, yesterday I returned from Cuba with President 
Obama's delegation where we discussed the opening of U.S.-Cuban 
relations.
    While we have made steps toward developing positive 
bilateral relations, President Castro has repeatedly stated 
that relations with the United States will never be fully 
normal so long as the United States occupies or utilizes the 
Guantanamo Bay detention facility.
    How do you imagine the continued use of the Guantanamo Bay 
detention facility would affect the process of normalizing 
relations between the United States and Cuba?
    Mr. Wolosky. Thank you, ma'am.
    As the President has said, this administration has no plans 
to turn over the base at Guantanamo Bay, Cuba. We are intent, 
as you know, to close the detention facility at that base.
    We would expect to continue to use the base for dealing 
with mass migration contingencies and also to support Coast 
Guard operations with respect to counter drug operations in the 
region.
    Ms. Kelly. Okay. To what extent do you believe this local 
diplomatic security could contribute to advancing our national 
security efforts?
    Mr. Wolosky. Well, as you know, President Obama feels 
firmly that closing Guantanamo is in the national security 
interests of the United States.
    No detainee is transferred from Guantanamo absent a 
certification from the Secretary of Defense that the transfer 
will--the specific transfer will further the national security 
of the United States.
    And as I said in my opening statement, President Obama was 
hardly the first U.S. President to conclude that closing 
Guantanamo was in the national security and foreign policy 
interests of the United States.
    The first President to do that was the man who opened it 
up, George W. Bush, who concluded that it was a propaganda tool 
and a distraction to our allies. Not only did he believe that, 
he acted on it in transferring over 500 detainees from 
Guantanamo to third countries.
    So we believe, as did President Bush, as did numerous 
former Secretaries of State of both parties, the same for 
Secretaries of Defense, same for three former Chairmen of the 
Joint Chiefs of Staff and numerous retired flag officers, that 
closing Guantanamo will on balance enhance our national 
security.
    As we have said, you cannot live life without risk and the 
proper analysis, as Congressman Engel suggested, we believe is 
balancing the risks of keeping it open versus the risks of 
closing it and, you know, we work diligently to prevent 
reengagement.
    We've been quite successful in this administration in 
preventing reengagement and even one detainee returning to the 
fight is too many. But the proper analysis is balancing the 
risks of closure versus the risks of keeping it open.
    And I would point out that, obviously, our hearts go out to 
the people of Belgium today and our hearts went out to the 
people of Paris just a few short months ago.
    But the continued maintenance of the facility at Guantanamo 
Bay did not prevent either of those attacks.
    There are, unfortunately, going to be acts of terrorism, 
probably whether the facility is opened or closed. The proper 
analysis is what are the risks of keeping it open in light of 
the very obvious use of the that facility as a propaganda tool 
which, frankly, you should not have to question.
    ISIL, which has now claimed responsibility for the Belgium 
attacks, uses Guantanamo as a propaganda tool. There's no 
question about this.
    We've all seen images of prisoners taken by ISIL being 
executed wearing orange jumpsuits that we believe are meant to 
mimic and invoke Guantanamo jumpsuits.
    There's no question that this is being used as a propaganda 
tool as President Bush himself concluded when he determined to 
close the facility.
    Ms. Kelly. I'm running out of time. So thank you. I yield 
back.
    Chairman Royce. Matt Salmon of Arizona.
    Mr. Salmon. Thank you, Mr. Chairman.
    As long as we're talking about Cuba policy, I've got 
something I'd like to get off my chest.
    I find the imagery of the President yukking it up with FARC 
terrorists at a baseball game yesterday when Europe is under 
siege by terrorists disgusting, absolutely disgusting, and I 
believe that, well, I'm not going to go on on that. I just 
think there are better things I think the public should be 
seeing.
    One of the troubling aspects of the transfer of the six 
detainees to Uruguay was the Sloan letter, the letter assuring 
the Uruguayan Government that none of the detainees had ever 
been associated with terrorism. We know this isn't true, and I 
know it was your predecessor who wrote the letter. Can you walk 
us through how the administration could make such a misleading 
statement?
    How can you expect a host government to then take seriously 
the monitoring and mitigation of the detainee? In Uruguay's 
case, the government stated ahead of time they would not 
monitor the detainees and we still released them.
    Does this speak to the administration's overall willingness 
to accept greater risk in pursuit of the President's political 
goal to empty the prison? Mr. Wolosky.
    Mr. Wolosky. Sure. Yes, sir. Thank you.
    First, although we cannot speak in an open session about 
the specifics of the security assurances that have been agreed 
to with any one country, I can assure you that any public 
statements you may have just referenced are not accurate and we 
do have security assurances with Uruguay.
    We briefed this committee in closed session on those 
security assurances. We're happy to come and brief you about 
what they are and how they're being implemented.
    As to the Sloan letter, what I can tell you is that the 
conclusions in the Sloan letter mirrored the conclusions 
reached by the executive--the EOTF process, which was the 
process put in place at the beginning of this administration to 
carefully review all reasonably available information to the 
U.S. Government with respect to a particular detainee.
    That process was described in some detail in my written 
submission. It involved dozens of national security 
professionals from all relevant agencies and departments of the 
government including the intelligence community, many of them 
career professionals, and they reached certain conclusions 
about each detainee and the information available to the United 
States about each detainee.
    So what the Cliff Sloan letter does is it attracts the 
conclusion of the EOTF report, which was this comprehensive 
interagency review that was conducted for the specific purpose 
of analyzing the available information in the U.S. Government 
about each detainee and then making a disposition 
recommendation about that detainee.
    Mr. Salmon. Whatever justification you're trying to make 
for why the letter, though inaccurate, was sent doesn't really 
provide a lot of comfort to most of us.
    The fact is it was flat out wrong. It was an error and a 
gross error. In a recent interview with NPR you said that after 
having visited Guantanamo Bay you felt the detention center was 
better certainly than any state or local correctional facility 
or prison you visited and better than many of the Federal 
facilities. Yet, you're advising the President on the closure 
of this facility so we can propose building a new facility 
here. Does that make any sense?
    Would it not be better to tell the American people and the 
world the real story about the facility, that it's a model 
detention facility, that the International Committee of the Red 
Cross, the ICRC, has regular access to it?
    Wouldn't it be best to dispel the false narrative that some 
use, rather than close down what by your estimation is a great 
facility?
    Mr. Wolosky. Well, I do think it's a professionally run and 
a humanely run facility and in particular the servicemen and 
women who serve there face enormous hardship in their service 
and they do an outstanding job in running the facility.
    General Kelly did an outstanding job in managing that. Now 
Admiral Tidd has taken over that process, and they both do an 
incredible job in maintaining what is a very well-run facility.
    That said, we still think it should be closed.
    Chairman Royce. We're going to Greg Meeks of New York and 
then Mo Brooks of Alabama.
    Mr. Meeks. Thank you, Mr. Chairman.
    I just want to get, first, a couple of things straight, you 
know, for the record.
    As I listened and my heart goes out to those individuals 
who lost their lives recently in Belgium as well as, you know, 
we talk about the Paris attacks often and you talk about--I 
just want to make sure that everyone and the record is clear 
that this war is not just against the West.
    We don't talk about all of the attacks that have taken 
place in various places. It's taken place--and we should be 
just as concerned in Nigeria, in Kenya, in Turkey.
    So to think--these are all human lives. We ought to be 
concerned about all of those lives, not just in one area. And 
it's not just against us.
    It's not just against Christians because when you look at 
that Muslims have been killed also by these thugs and that 
should be properly noted. And it should also be clear, and I 
think that the historical record is clear, that when we act out 
of fear our nation has made monumental mistakes, and keeping 
Gitmo in operation out of fear--because that's what I'm 
hearing.
    Folks are saying out of fear we need to keep Gitmo--we 
beget another monumental mistake that, one, hurts America's 
interest rather than helps it.
    You know, what comes straight to mind is we acted out of 
fear when we put the Japanese into internment camps. And so 
therefore I caution us. And then after it happens then we say 
oh, look at our past or we try to not talk about what we did.
    And so history gives us a reminder of what we should or 
should not be doing in this place and calmer heads and better 
heads as opposed to acting out of fear and emotion.
    So I just think that the record should be clear on that and 
it should be clear that all kinds of lives are lost in all 
parts of the world.
    And so this is a threat to everybody--not just to the West, 
not just to Christians but to everybody and that's why we've 
got to band together and work together in a cooperative manner.
    That being said, let me ask a quick question. Where do we 
go? If the Guantanamo detention facilities close--we close 
them--what will the United States do when we capture terrorist 
suspects in the future?
    Do we have other adequate facilities for these individuals 
and how would the administration in the future capture, 
detention, and interrogation of high-level ISIS commanders?
    Mr. Lewis. Thank you, sir.
    We do believe we have the facilities. We do--any future 
captures would be considered on a case by case basis and we'd 
consider whether the host nation could detain them or whether 
there'd be a disposition under prosecution, either Article 3, 
possibly military commissions.
    But we believe we have the abilities. We've shown one or 
two cases in Iraq recently to detain people and then turn them 
over to the host country. But it's on a case by case basis.
    Mr. Meeks. So there is a clear and concrete plan on how we 
would do this?
    Mr. Lewis. Yes, sir.
    Mr. Meeks. Now, let me ask also. I was listening to some of 
the debate earlier and there was a question about recidivism 
rates and I guess according to the official reports from the 
office of the director of national intelligence that fewer than 
5 percent of detainees that are transferred by the Obama 
administration are confirmed to have engaged in terrorist 
attacks.
    But I did hear--I think it was Chairman Royce--talk about 
they used a reengagement rate that is 30 percent. Now, is it 
30? Can you describe how you make that determination--how those 
rates are determined and why was there such a disparity?
    Mr. Wolosky. Well, I'll let the chairman speak for himself. 
But I think that----
    Chairman Royce. Will the gentleman yield? I will speak. 
Because it's confirmed and suspected and you're leaving out 
suspected.
    Mr. Wolosky. Not in this administration, respectfully, sir. 
The rate of suspected in this administration is 8.3 percent.
    Chairman Royce. No, that's the exact numbers that I concur 
are right and the overall numbers are over 30 percent overall.
    And 8.9 confirmed and suspected, and as explained to us the 
investigators say it takes about 4 years lead time in order to 
get all of the confirmation. I've just explained--I yield back.
    Mr. Wolosky. There were over 530 detainees transferred 
during the previous administration. Obviously, we cannot speak 
to the circumstances under with those detainees were 
transferred.
    First, how was the decision made to transfer them. Second, 
how was the decision made to transfer them to a specific 
country. Third, what assurances, if any, did the previous 
administration obtain from the third country to keep us and 
them safe.
    We can't speak to that. All we can do is speak to what we 
are doing in this administration.
    Mr. Meeks. And that's what I want you to do, speak to----
    Mr. Wolosky. What we are doing in this administration is at 
both stages of the process, first, making a determination in 
principle that a detainee may be approved for transfer and 
designated as such and, second, transferring him to a specific 
country subject to specific and detailed security assurances.
    What we are doing is very thorough. It's interagency. It's 
very comprehensive and it takes a long time. It's described at 
length in my written testimony. I'm happy to answer questions 
about it.
    But the results of it as set forth in the ODNI report from 
this month are clear. The results of it are, first, confirmed 
reengagement. Seven out of 144--that's 4.9 percent. Suspected, 
12 out of 144. That's 8.3 percent. Those are what the numbers 
are, sir, for this administration.
    I'd point out also that with respect to the standards that 
are applied in defining what it even means to be confirmed or 
suspected it's important to point out, first, that confirmed is 
a preponderance of information standard. So this is not a 
reasonable doubt. This is not that we are----
    Chairman Royce. The gentleman's time has expired.
    If I could just go to the gentleman from Florida, Mr. Yoho, 
for his questions and then maybe a question from Mr. Trott and 
Mr. Connolly.
    Mr. Yoho. I have more of a statement, and I appreciate it.
    You know, to start with, when we speak about closing 
Guantanamo I'm glad to hear you on the record backing up what 
the administration said that they will not transfer the naval 
base back to Cuba.
    We're talking about the detention center only. There are 
two entities there, as we're all aware of. As far as a 
recruiting tool, the Guantanamo Bay as a recruiting tool, I 
don't see how--I think that's a weak argument. Because if those 
people come to the United States is that not a recruiting tool, 
too?
    So to say that they're in Guantanamo is going to be a 
stronger recruiting tool I think is sophistry at its finest 
because the jihadis are going to look at them being here in the 
belly of the great Satan.
    So I think that argument is very weak and we shouldn't even 
talk about that. And I disagree with your comments about the 
Uruguay Six. I just came back there and met with their foreign 
minister.
    They don't have a clue of what that negotiation was when it 
was negotiated under President Mujica. They don't know what the 
deals were, what the conditions were. They don't have a clue of 
monitoring and I think it's a joke.
    But saying that, I think the overall success rate--if there 
were 780 total detainees we're down to 94 percent have been 
processed. That leaves only 6 percent, and of those 6 percent 
there's--that's taking out the 36 percent or the 36 that have 
already been cleared.
    Yet this administration hasn't found them a suitable place 
to go and I would encourage you to move a little bit quicker on 
that.
    And of the remaining 52 percent, if we take the 30 percent 
that we know will go into combat against our young men and 
women or suspected, that comes out to be 15.6 terrorists back 
fighting our young men and women and I don't think any American 
would want that or people around the world.
    And I'm going to yield back the rest of my time back to Mr. 
Trott, if that's----
    Chairman Royce. Yes, we're going to have one question from 
Mr. Trott and one question from Mr. Connolly.
    Mr. Trott. So thank you. I thank the gentleman from 
Florida.
    So if we move the detainees to U.S. soil that's not going 
to be used as a recruitment tool by ISIS? They're going to go 
silent now that we've done right by our allies?
    Mr. Lewis. It still will be a tool but we take away--from a 
legal point of view we're taking away the issue that our allies 
are asking us to do. They're saying close Gitmo. So----
    Mr. Trott. And do you think our allies might change their 
position in light of Brussels and Paris, like was suggested 
earlier? Isn't there a chance--would you agree that there's a 
chance they will change their position with respect to our 
activities in Gitmo in light of recent events?
    Mr. Lewis. Sir, it's been a continuing position that they 
want Gitmo closed, that our leadership and the Bush 
administration leadership said that the costs of Gitmo outweigh 
the benefits.
    Chairman Royce. Thank you, Mr. Trott.
    Now we go to Mr. Connolly for his question.
    Mr. Connolly. Mr. Wolosky or Mr. Lewis, do you remember the 
CIA terrorist incident a number of years ago in Fairfax County?
    Mr. Lewis. Yes, sir.
    Mr. Connolly. Was the perpetrator of that terrorist 
incident caught and tried?
    Mr. Lewis. It's my understanding yes.
    Mr. Connolly. Was he tried in Guantanamo or was he tried in 
a U.S. district court right here in Virginia?
    Mr. Lewis. It's my understanding a U.S. district court here 
in Virginia.
    Mr. Connolly. And was he sentenced?
    Mr. Lewis. It's my understanding yes, sir.
    Mr. Connolly. He received the death sentence, as a matter 
of fact, did he not?
    Mr. Lewis. That I do not know personally. I know it was a 
severe sentence.
    Mr. Connolly. Yes, and somehow our system of justice 
worked. Not on Cuban soil--on Virginian soil. We could handle a 
terrorist and did.
    I just--for the record, you know, we have to take into 
account the consequences of the symbolism of Guantanamo and, 
frankly, the fact that the suggestion is planted that we're not 
all that confident in our system of justice in handling 
terrorist cases and the fact of the matter is we do have 
experience and our system worked.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Connolly.
    We have votes on the floor. We appreciate the time of our 
witnesses this morning, and our witnesses have agreed to meet 
with us in April in closed session so we appreciate that.
    As you have heard, there are many concerns with the 
President's plan, especially given the ever-growing terrorist 
threat as evidenced by what happened in Brussels this week.
    The points made by Mr. Trott and by Mr. Yoho bring to mind 
a conversation I had yesterday with the former NSA and CIA 
director about the concept that if you move them to U.S. soil, 
that in fact that will be a magnet for terrorists--the fact 
that jihadists are being held in the United States.
    And so I think the last questions raised were also 
questions worth contemplating. But we will adjourn at this time 
for the votes and we thank our panel.
    Mr. Lewis. Thank you very much.
    [Whereupon, at 10:54 p.m., the committee was adjourned.]

 
                            A P P E N D I X

                              ----------                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
